                        DEPARTMENT OF HOMELAND SECURITY
                                       Office of Inspector General – Office of Audits
                                                 San Francisco Field Office
                                                1111 Broadway, Suite 1200
                                              Oakland, California 94607-4052


                                                          March 11, 2004

MEMORANDUM

TO:                  Jeff Griffin
                     Regional Director
                     FEMA Region IX




FROM:                Robert J. Lastrico
                     Field Office Director

SUBJECT:    Audit of Alameda County
            Hayward, California
            Public Assistance Identification Number 001-00000
            FEMA Disaster Number 1203-DR-CA
            Audit Report Number DS-11-04
_____________________________________________________________________

The Office of Inspector General (OIG) audited public assistance grant funds awarded to
Alameda County, Hayward, California (County). The objective of the audit was to determine
whether the County expended and accounted for Federal Emergency Management Agency
(FEMA) funds according to federal regulations and FEMA guidelines.

The County received an award of $6.1 million from the California Office of Emergency
Services (OES), a FEMA grantee, for debris removal and emergency and permanent repairs
to structures damaged as a result of flooding. The disaster period was from February 2, 1998,
to April 30, 1998. The award provided for 75 percent FEMA funding for 40 small projects
and 26 large projects.1 The audit covered the period February 2, 1998, to November 22, 2002,



1
    Federal regulations in effect at the time of the disaster set the large project threshold at $47,100.


This report remains the property of the DHS Office of Inspector General (DHS-OIG) at all times and, as
such, is not to be publicly disclosed without the express permission of the DHS-OIG. Requests for copies
of this report should be immediately forwarded to the DHS Office of Counsel to the Inspector General to
ensure strict compliance with all applicable disclosure laws.
and included a review of 3 small projects and 19 large projects with a total award of
$4.7 million (see Exhibit).

The OIG performed the audit under the authority of the Inspector General Act of 1978, as
amended and according to Government Auditing Standards issued by the Comptroller
General of the United States. The audit included the review of FEMA, OES, and County
records, and other auditing procedures determined necessary under the circumstances.


                                   RESULTS OF AUDIT

The County generally expended and accounted for public assistance funds according to
federal regulations and FEMA guidelines for three small and eight large projects reviewed.
However, for eleven large projects, the County’s claim included questionable costs of
$638,223 (FEMA share - $478,667). These questionable costs consisted of $599,157 in
excessive debris removal charges and $39,066 in unsupported project costs.

Finding A – Excessive Debris Removal Charges

The County’s claim for nine projects included $599,157 in debris removal charges that were
excessive. Table 1 identifies the nine projects, the debris removal costs paid, the cubic yards
of debris removed, and the cost per cubic yard removed.

                                            Table 1
                 Project Debris Removal        Cubic Yards     Cost Per Cubic
                 Number    Costs Paid           Removed        Yard Removed
                  1528     $232,354              12,554            $18.51
                  1531     $199,612               7,349            $27.16
                  5521     $114,035               5,070            $22.49
                  2223     $107,311               5,040            $21.29
                  2225     $102,094               2,584            $39.51
                  2221       $98,565              3,492            $28.23
                  2219       $58,109              1,678            $34.63
                  2227       $53,629              2,992            $17.92
                  5522       $49,758                872            $57.06

The nine projects noted had an average cost per cubic yard of $29.64, with a low of $17.92
and a high of $57.06.

The scope of work for the nine projects listed above was the removal of debris and silt from
various County owned flood control channels. The OIG noted that the projects already had



                                               2
been completed at the time the scopes of work were specified in Damage Survey Reports
(DSR). Further, FEMA records showed that the County did not have adequate documentation
identifying the pre-disaster level of sediment in the channels. The DSR Data Sheets
supporting each of the projects indicated that the projects were in suspension pending
additional information that would show the amount of sediment specifically associated with
the disaster. The Data Sheets also noted that failure to provide the information would result
in denial of claimed costs.

In an effort to close the public assistance award to the County for its largest debris removal
project, FEMA evaluated claimed debris removal costs for project 5515. The County
requested reimbursement of $2.8 million for the removal of 154,856 cubic yards of debris for
this project, or $17.79 per cubic yard. However, because the County lacked documentation
identifying the pre-disaster level of debris and sediment, FEMA and the County agreed to a
reimbursement rate of $10 per cubic yard for this project, reducing funding to $1.5 million
($10 times 154,856 cubic yards). When the County submitted its final claims for the nine
debris removal projects listed above, it neither provided FEMA documentation establishing
the pre-disaster debris and sediment levels nor adjusted the claims to reflect a debris removal
rate comparable to that used for project 5515. FEMA approved costs claimed ranging from
$17.92 to $57.06 per cubic yard of debris removed, all of which the OIG considered
unreasonable based on the actions taken by FEMA on project 5515. Table 2 shows the
excessive debris removal charges that resulted from not using a rate comparable to that used
on project 5515.

                                            Table 2
                                             Computed Cost at
                Project Debris Removal        $10 Per Cubic        Excessive
                Number    Costs Paid              Yard              Charges
                 1528    $ 232,354               $125,540         $106,814
                 1531       199,612                 73,490         126,122
                 5521       114,035                 50,700          63,335
                 2223       107,311                 50,400          56,911
                 2225       102,094                 25,840          76,254
                 2221        98,565                 34,920          63,645
                 2219        58,109                 16,780          41,329
                 2227        53,629                 29,920          23,709
                 5522        49,758                  8,720          41,038
                 Total   $1,015,467              $416,310         $599,157

Office of Management and Budget Circular A-87, Attachment A, paragraph C.2 states that a
cost is reasonable if, in its nature, it does not exceed that which would be incurred by a
prudent person under the circumstances prevailing at the time the decision was made to incur



                                               3
the cost. For FEMA, a reasonable cost should be the actual cost of removing disaster-related
debris from the County’s flood control channels. Since the County could not document the
pre-disaster debris and sediment levels of its flood control channels and its debris removal
costs per cubic yard varied significantly between projects, FEMA should have disallowed the
costs claimed by the County as unsupported or determined a “reasonable” rate as was done
for project 5515.

County officials explained that the flood control channels were inspected and maintained
regularly and noted that at the time of the disaster they did not have a formalized system of
documenting or tracking the inspections. These officials provided the OIG with copies of
“work orders” generated by inspectors, prior to the disaster, for maintenance work relating to
the nine projects and project 5515. While these documents showed that various maintenance
tasks were completed, the tasks either did not include the removal of sediment or were for
locations not related to the projects listed above.

FEMA, OES, and County records for the projects do not include documented evidence
identifying the portion of debris removed that was pre-disaster and disaster related. Title 44
of the Code of Federal Regulations, Section 206.223(a)(1) [44 CFR §206.223(a)(1)], requires
that “to be eligible for financial assistance, an item of work must be required as the result of
the major disaster event….” Since the County did not identify the amount of debris related to
the disaster and debris removal costs per cubic yard were unreasonable for the nine projects
reviewed, the OIG questioned $599,157 as excessive and unreasonable.

Finding B – Unsupported Project Costs

The County’s claim for projects 5530 and 6408 included $39,066 in charges that were not
supported with documentation that proved the costs were disaster related. According to
44 CFR 13.20(b), the County is required to maintain accounting records that identify how
FEMA funds are used. The scope of the projects entailed debris and silt removal and hauling
it to a disposal site. A single contractor performed the work for both projects.

County accounting records for the projects contained invoices from the contractor that
itemized debris loads by date, delivery tag, truck number, hours, and charges; but records did
not always include support for all the itemized costs. For example, accounting records did not
support with delivery tags charges of $28,612 for project 5530 and $10,454 for project 6408.
The delivery tags would have supported that the itemized costs were actually incurred and
were for disaster related activities. Since the County did not maintain records supporting the
charges, the $39,066 was questioned.




                                               4
                                 RECOMMENDATION

The OIG recommends that the Regional Director, FEMA Region IX, in coordination with
OES, disallow questioned costs of $638,223.

          DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOW-UP

The OIG discussed the results of this audit with County officials on January 27, 2004. These
officials concurred in principle with the findings and recommendation. The OIG also notified
OES and FEMA Region IX officials of the audit results on February 3, 2004.

Please advise this office by May 10, 2004, of actions taken to implement our
recommendation. Should you have any questions concerning this report, please contact me at
(510) 627-7011. Key contributors to this assignment were Humberto Melara and Brian
Byrne.




                                             5
                                                                              Exhibit
                              Schedule of Audited Projects
                                    Alameda County
                   Public Assistance Identification Number 001-00000
                         FEMA Disaster Number 1203-DR-CA


              Project             Amount          Amount           Finding
              Number              Awarded        Questioned       Reference
          Large Projects
                1528           $ 273,471          $106,814             A
                1531              210,636          126,122             A
                1532               59,695                0
                2223              107,311           56,911             A
                2225              102,094           76,254             A
                2221               98,565           63,645             A
                2219               58,109           41,329             A
                2227               53,629           23,709             A
                2898              125,328                0
                5521              114,035           63,335             A
                5515            1,781,940                0
                5522               51,066           41,038             A
                5523              108,478                0
                5524              229,132                0
                5526              258,502                0
                5530              328,668           28,612             B
                5531              127,548                0
                5984              211,604                0
                6408              313,382           10,454             B
              Subtotals       $4,613,193          $638,223

           Small Projects
                1529               40,443                0
                5983               32,599                0
                5516               19,716                0
             Subtotals        $    92,758         $      0

                     Totals   $4,705,951          $638,223
Legend
A.     Excessive Debris Removal Charges
B.     Unsupported Project Costs


                                            6
